No. 20-449

 

 

IN THE

Supreme Court of the United States

UNITED STATES DEPARTMENT OF HOMELAND SECURITY,
et al.,

Petitioners,
v.

STATE OF NEW YORK, e¢ al.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit

BRIEF IN OPPOSITION FOR RESPONDENTS
MAKE THE ROAD NEW YORK, AFRICAN
SERVICES COMMITTEE, ASIAN AMERICAN
FEDERATION, CATHOLIC CHARITIES
COMMUNITY SERVICES (ARCHDIOCESE OF
NEW YORK), AND CATHOLIC LEGAL
IMMIGRATION NETWORK, INC.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,072 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 9, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
